Office of Inspector General
U.S. Department of Labor
Office of Audit




                             Improving the
                           Trade Act Programs




                                          Report No. 04-01-009-03-330
                                          Issue Date: September 26, 2001
                                             TABLE OF CONTENTS
                                                                                                                             Page

ACRONYMS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   v

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

OBJECTIVES, SCOPE AND METHODOLOGY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10

RESULTS OF AUDIT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

          CHAPTER I - MOST PROGRAM PARTICIPANTS FOUND JOBS
               WHICH PAID SUBSTANTIALLY LESS . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

                    One-Third of Participants Were Suitably Employed . . . . . . . . . . . . . . . . . . . . 12

                    Less Than One in Four Participants Obtained Program-
                    Assisted Suitable Employment . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13

                    Officials Emphasized Front-End Program Activities
                    and Services Instead of Participant Outcomes . . . . . . . . . . . . . . . . . . . . . . . . . 16

          CHAPTER II - PROGRAM-RELATED TRAINING WAS MODERATELY
               EFFECTIVE IN HELPING PARTICIPANTS FIND JOBS . . . . . . . . . . . . . . 18

                    Most Program Participants Were
                    Afforded Occupational Skills Training . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18

                   Participants’ Training Needs
                    Were Adequately Assessed . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19

                    The Need for Training Is Indicated by Shifts
                    in Industries and Occupations. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19

                    Participants Who Completed Training Enjoyed
                    Moderately Better Job Success . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20

                    Training Waivers Were Appropriately Used . . . . . . . . . . . . . . . . . . . . . . . . . . 22




                                                                                                                                 ii
                                     TABLE OF CONTENTS (Cont.)

                                                                                                                        Page

                    Interprogram Coordination Was Effective,
                    and Most Participants Gave the Programs High Ratings . . . . . . . . . . . . . . . . 23

          CHAPTER III- THE TRADE PROGRAMS’ PARTICIPANT
               OUTCOMES REPORTING SYSTEMS WERE UNRELIABLE . . . . . . . . . 24

                    Outcomes Reporting Faced Many Difficulties
                    in the First Year of Implementation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24

                    In One-Half of the States Visited,
                    Participant Counts Were in Error . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24

                    Nearly 20 percent of Sampled Participants
                    Were Not Reported in the TAPR . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26

                    Implementation of the TAPR Competed With
                    WIA Reporting Systems . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27

                    A New TAPR System Is Being Implemented . . . . . . . . . . . . . . . . . . . . . . . . 27

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29

RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 30

ETA’S COMMENTS ON THE DRAFT REPORT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 31

OUR EVALUATION OF ETA’S COMMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 33

EXHIBITS

          EXHIBIT A - SAMPLING METHODOLOGY

          EXHIBIT B - TOP INDUSTRIAL GROUPS AND OCCUPATIONAL
                      CATEGORIES OF PARTICIPANT EMPLOYMENT
                      BEFORE AND AFTER THE TRADE PROGRAMS




                                                                                                                              iii
              TABLE OF CONTENTS (Cont.)


EXHIBIT C - COMPREHENSIVE LISTING OF TAPR ERRORS

EXHIBIT D - SUMMARY OF JOB SEARCH AND PARTICIPANT
            RELOCATION INFORMATION

EXHIBIT E - COMPARISON OF PARTICIPANT OUTCOMES AT
            TERMINATION AND AUDIT INTERVIEW

EXHIBIT F - TEXT OF ETA’S RESPONSE TO THE DRAFT AUDIT REPORT




                                                               iv
Improving the Trade Act Programs



                                            ACRONYMS


BRS              Basic Readjustment Services
CFR              Code of Federal Regulations
DOL              U.S. Department of Labor
DOT              Dictionary of Occupational Titles
DTAA      Division of Trade Adjustment Assistance
ES               Employment Service
ESL              English as a Second Language
ETA              Employment and Training Administration
FY               Fiscal Year
GAL              General Administration Letter
GPRA             Government Performance and Results Act
JTPA             Job Training Partnership Act
MIS              Management Information Systems
NAFTA-TAA North American Free Trade Agreement - Transitional Adjustment Assistance
OIG              Office of Inspector General
OJT              On-the-Job Training
P.L.             Public Law
SESA             State Employment Security Agency
SIC              Standard Industrial Classification
SOF              Statement of Facts
SPIR             Standardized Program Information Report
SSN              Social Security Number
SUDAAN           Survey Data Analysis Software
TAPR             Trade Act Participant Report
TEGL             Training and Employment Guidance Letter
TAA              Trade Adjustment Assistance
TEIN             Training and Employment Information Notice
TRA              Trade Readjustment Allowance
UI               Unemployment Insurance
US               United States
WIA              Workforce Investment Act




U.S. Department of Labor - Office of Inspector General                               v
Improving the Trade Act Programs


                                     EXECUTIVE SUMMARY


The Trade Adjustment Assistance (TAA) program was established in 1974 to “assist individuals,
who became unemployed [or earnings were reduced] as a result of increased imports, return to
suitable employment.” A companion program, the North American Free Trade Agreement -
Transitional Adjustment Assistance (NAFTA-TAA) program, followed in 1993, to help those
who had lost their jobs, or whose wages were reduced as a result of trade with Canada or
Mexico.

We reviewed the TAA and NAFTA-TAA programs’ (hereafter, collectively referred to as the
Trade programs) Fiscal Year (FY) 1999 activities and evaluated the programs’ performance by
examining some 724 program participants’ experiences in 16 states.


                                                                  We estimate that 721 percent of
  While Most Program Participants Found                           program participants found jobs when
  Jobs, Fewer Obtained Suitable Employment                        they left the Trade programs, while 34
                                                                  percent found jobs that paid enough to
                                                                  satisfy the Trade programs’ objective of
                                                                  helping participants find “suitable
                                                                employment.”


                                                              About 22 percent of participants found
 Less Than One in Four Participants                           suitable jobs in which participants either
 Obtained Program-Assisted                                    credited the Trade programs with helping
 Suitable Employment                                          them find work or we determined the
                                                              participants found training-related jobs.

Participants did not find suitable employment for a variety of reasons, and many were outside of
the service providers’ control. However, we believe greater emphasis on employment outcomes,
post-program followup, and program evaluation could have produced better program results.



 Front-End Program Activities Were                          Suitable employment has long been a goal of
 Emphasized, Not Program Outcomes                           the Trade programs. However, participant
                                                            outcomes have received inadequate emphasis,

        1
         Unless otherwise indicated, the percentages discussed in this report are point estimates resulting from our
sample of participants.



U.S. Department of Labor - Office of Inspector General
Improving the Trade Act Programs

for a variety of reasons. There is no relationship between participants’ employment outcomes and
the Trade programs’ funding. The legislation bases allocations on workload -- petitions for trade
assistance and workers affected by the events -- not outcomes.

For many years, other DOL employment and training programs have required post-program
followup and have integrated performance measures into the programs’ design. In contrast, the
Trade programs only recently established participant followup requirements and a system to
capture post-program participant outcomes.

Program managers had little familiarity with measuring program outcomes or appreciation for
using them as tools to gauge the programs’ effectiveness. Efforts spent in identifying and
reporting participant outcomes were often viewed as bothersome accommodations to Federal
program requirements. Information that was entered into reporting systems was often inaccurate,
little energy was used in determining the status of participants, and local Trade programs’
activities were seldom monitored.


                                             Overall, 9 of 10 participants received training
  Training Was Moderately Successful         through the Trade programs. This is a sharp
                                             increase compared to information in a past
                                             OIG program audit that indicated nearly one-
                                             half of program participants
                              received no training.2

Generally, participants’ training needs were assessed; however, participants who completed
training enjoyed moderately better success in finding employment than their peers. We found 77
percent of participants who completed their training found jobs, compared to 68 percent of
participants who received some training, but did not complete their curriculums. We also found
that 37 percent of participants who completed training obtained suitable employment, compared
to 29 percent who did not.

A past OIG concern has been the indiscriminate use of waivers that excused participants from
training. We found the training waivers were appropriately granted and sustained during FY
1999. The absence of waiver provisions in the NAFTA-TAA program, coupled with better
oversight of TAA program waivers, have greatly reduced this once troublesome concern. We
also found coordination between the Trade programs and other training programs was generally
effective and benefited participants.




        2
         “Trade Adjustment Assistance Program, Audit of Program Outcomes in Nine Selected States,” DOL, OIG,
Report Number 05-93-008-03-330, dated September 30, 1993



U.S. Department of Labor - Office of Inspector General                                                    2
Improving the Trade Act Programs

                                                     ETA first attempted to capture participant
  Program Data Were Unreliable                       outcomes and measure program success
                                                     against a performance goal in FY 1999. The
                                                     reporting system used by the states to
capture data on participants that had terminated from the program was unreliable. The system
was often ignored or neglected by the states.

One in five participants in our sample was not reported in the correct period. Data reported in the
system were often incomplete or inaccurate. For example, less than 4 of 10 participants in our
sample found employment according to the reporting system. However, we found 7 of 10
sampled participants had obtained jobs. Consequently, the reporting system was not a useful tool
in managing or evaluating the Trade programs.

Causes for the ineffective reporting included implementation problems at both the system
contractor and the state levels, lack of emphasis on participant outcomes, and inconsistencies in
how and when data should be entered into the system.

In FY 2000, ETA expanded performance goals to include measurement of participants’
employment earnings after program completion. In March 2001, ETA also implemented a new
reporting system that includes participant placement and wage replacement goals. The new
reporting system, which uses Unemployment Insurance (UI) wage data to confirm participants’
employment and earnings, should reduce past difficulties in obtaining participant data.


                         Some 27 years after TAA’s enactment, improved reporting systems
  Conclusion             offer the promise of accurate data on how participants fared, with
                         which the Trade programs’ effectiveness can be measured and used to
                         oversee program operations. However, ETA’s success will depend
upon whether accurate data can be gathered by the programs’ reporting system with which to
measure performance. Success will also require ETA’s and the states’ commitment to recognize
performance measurement as a management tool, and use outcome measures to help direct the
program activities.


  Recommendations                  To improve the Trade programs’ effectiveness, we recommend the
                                   Assistant Secretary for Employment and Training ensure:

        !        Employment goals are passed to the local levels where training and services are
                 actually provided, so that suitable outcomes are understood and pursued.




U.S. Department of Labor - Office of Inspector General                                              3
Improving the Trade Act Programs

        !        Clear, uniform procedures are applied that allow consistent determinations of
                 participants’ program termination dates and are linked to cessation of services or
                 to known participant outcomes.

        !        States’ trade adjustment activities are an integral part of their program evaluation
                 and monitoring systems.

        !        Participant data in the new TAA reporting system are adequately monitored by
                 ETA and the states to ensure it is accurate and complete.


                                 The response indicates ETA is encouraged with many of this
  ETA’s Response                 audit’s findings, particularly improvements in program
                                 performance that have occurred since our 1993 audit.
                                 However, ETA disagreed with our application of an 80 percent
wage replacement standard in determining the programs’ success in helping participants find
reemployment.

ETA indicates the wage replacement goal is only one of several factors used to determine if a
participant’s training should be approved and is not a goal of the Trade Act programs that is
anticipated for each participant. ETA’s recently adopted 80 percent wage replacement goal is
calculated by using an average of program participants’ earnings, which the response credits as
being a better measure of the programs’ performance.

Concerning monitoring and the accuracy of program data, ETA reports it will implement a newly
developed Trade Act program review guide in 2002, which will include collection of data on the
degree to which the Trade Act programs are monitored. ETA also indicated it is bringing data
storage in-house to its national office and implementing a new initiative to evaluate reporting
inaccuracies.


                                   ETA voiced nearly identical objections to our use of an 80
  Our Evaluation                   percent wage standard in its response to our 1993 audit report.
                                   However, we believe ETA’s arguments are inconsistent with its
                                   having recently established wage replacement standards. We
continue to believe helping participants obtain suitable employment is an appropriate expectation
in serving an individual participant’s needs as well as measuring the Trade programs’ success.




U.S. Department of Labor - Office of Inspector General                                                  4
Improving the Trade Act Programs

We are encouraged by ETA’s initiative to improve the accuracy of program data. However,
many of the inaccuracies we identified were caused by omission of data, which are less susceptible
to being discovered through edit checks of information that has been entered into a database.
Ensuring data are complete will require much improved monitoring of activities at local points of
entry.




U.S. Department of Labor - Office of Inspector General                                          5
Improving the Trade Act Programs



                                          BACKGROUND


Programs to assist workers harmed by foreign trade policies have been components of social
assistance initiatives for the past 40 years. The first program was established by the Trade
Expansion Act of 1962 (P.L. 87-794) and was designed to provide cash assistance, in addition to
regular unemployment benefits, to individuals affected by international trade negotiations. The
program was not widely used because of the difficulty in demonstrating cause-and-effect
relationships between specific trade negotiations and job losses.


                                         The TAA program was established under the Trade
 Purpose of the Trade                    Act of 1974 (P.L. 93-618). Regulations governing the
 Assistance Programs                     TAA program are found at 20 CFR, Chapter V, Part
                                         617. TAA’s purpose is “to assist individuals, who
                                         became unemployed as a result of increased imports,
return to suitable employment.” The program also provides assistance to workers whose hours of
work have been reduced as a result of increased imports.

The program is administered by the ETA, and each state designates a state agency, usually the
state employment security agency (SESA), to serve as DOL’s agent in administering the program.

The NAFTA-TAA program was established under the North American Free Trade Agreement
Implementation Act of 1993 (P.L. 103-182), which amended the Trade Act of 1974 by adding
Subchapter D to Chapter 2 of Title II.

Workers who have lost their jobs, been threatened with job loss, or whose hours of work have
been reduced because of imports from, or shifts in production to, Mexico or Canada may petition
the Division of Trade Adjustment Assistance (DTAA) for assistance under the NAFTA-TAA
program. A statement of administrative action accompanying the NAFTA-TAA program
implementation also provides coverage to workers who are indirectly affected by trade with
Mexico or Canada. This would include persons such as employees of a producer of components
for another company that has been adversely affected by Mexican or Canadian imports. Benefits
for secondary workers come from Job Training Partnership Act (JTPA) Title III.



                                               Before individuals can receive assistance under TAA,
The Petition and                               they must be certified as eligible to apply for program
Certification Processes                        benefits and services. A company official, a group of
                                               three or more workers, their unions, or other workers’


U.S. Department of Labor - Office of Inspector General                                                   6
Improving the Trade Act Programs

representatives must petition the DTAA to determine whether increased imports of like or
directly competitive products contributed importantly to decreased sales and production and to
worker separations. Under the TAA program, DTAA has sole responsibility for conducting a
fact-finding investigation and has 60 days to issue an official notice of its decision.

Under the NAFTA-TAA, a petition may also be filed by a company, workers, or their
representatives. However, unlike TAA, the governor and DOL share responsibility for
investigating the workers’ eligibility. NAFTA-TAA petitions are filed with the governor, who
must make a preliminary finding on the petition within 10 days of receipt. The preliminary finding
is forwarded to DTAA, who must make a final determination within 30 days.


                                        Once a certification has been issued, eligible workers may
 Participant Benefits,                  apply for benefits directly with their nearest SESA office.
 Services, and Training                 There are some differences between the Trade programs’
                                        provisions regarding conditions participants must meet to
                                        receive benefits. However, benefits available to the
participants of both programs are identical. Once determined eligible under the appropriate
certification, workers may receive one or all of the following:

Trade Readjustment Allowances (TRA). The Trade programs are more generous than other
DOL employment and training programs because they offer income support payments to
participants. Participants who are in training may receive weekly cash payments for up to 52
weeks after individuals’ unemployment compensation benefits, or eligibility for such benefits,
have been exhausted.

Among other requirements to receive TRA, a TAA participant must be enrolled in an approved
training program or have completed such a program after a total or partial separation from the
adversely affected employment; or the state agency must have provided written notification that
the training requirement was waived. The agency may allow a waiver of the training requirement
for an individual when training is determined infeasible or inappropriate. A notable difference
between the Trade programs is that waivers are not granted under the NAFTA-TAA program.

Training. An individual may receive up to 104 weeks of approved training in occupational skills,
both classroom and on-the-job training (OJT), basic or remedial education, or training in literacy
or English as a second language (ESL). No individual is entitled to more than one training
program per certification, and the training must be on a full-time basis. Individuals who obtain
new employment that is not deemed suitable employment (of equal or higher skill level and wages
at not less than 80 percent of the worker’s previous average weekly wage) may terminate
employment, enter training, and receive UI or Trade Readjustment Assistance (TRA).




U.S. Department of Labor - Office of Inspector General                                                7
Improving the Trade Act Programs

Job Search Allowances. Participants may receive job search allowances to assist them in
securing a job within the United States. The state agency approving the allowance must
determine that the participant does not have a reasonable expectation of obtaining suitable
employment within the commuting area, but has a reasonable expectation of finding employment
in the area where the job search will be conducted. Job search allowances are infrequently used.

Relocation Allowances. Participants may receive relocation allowances to assist them in
relocating within the United States. The state agency must determine that the participants have
no reasonable expectation of obtaining employment in the commuting area, and that the
participants have obtained suitable employment or received a bona fide job offer elsewhere. As
with job search allowances, relocation allowances are seldom used.


                                  In FY 1999, states were provided $369 million for Trade
Program Cost and                  training, job search, relocation, and TRA benefits. The amounts
Performance Data                  increased to $415 million for FY 2000. In FY 2001, $407
                                  million was appropriated for the programs. In FY 1999, nearly
                                  $236 million was spent on TRA benefits, or about 2 of every 3
program dollars. In FY 1999, ETA reported that 28,383 TAA participants and 4,462 NAFTA-
TAA participants entered classroom training or OJT. Job search recipients totaled 313, and there
were 772 relocation beneficiaries.


Also in FY 1999, a new participant outcomes and performance measure reporting system was
instituted. Through this system, ETA hoped to accurately collect and analyze data on the
participants, services provided to them, and related outcomes. For FY 2000, ETA developed
specific numeric goals against which to judge the programs’ performance. One performance goal
was set in FY 1999, this being a goal to employ at least 72 percent of program terminees at
program exit. In FY 2000, ETA established a goal of employing 72 percent with a wage
replacement goal of 80 percent upon termination from the program.

                                       According to DOL’s Annual Performance Plan, dated April
 Recent Program Initiatives            2001, in FY 2001, the goals were increased to employing
                                       73 percent by the first quarter following their exit from the
                                       program; 80 percent of those employed in the first quarter
                                       after program exit will be employed in the third quarter
after program exit; and those who are employed in the first quarter after program exit and are still
employed in the third quarter will earn, on average, 82 percent of their pre-separation earnings.

In December 1999, a Trade Act Task Force was formed, consisting of representatives from ETA
and the states. One initiative of the task force was to improve integration of the Trade programs
into Workforce Investment Act (WIA) systems. Training and Employment Guidance Letter


U.S. Department of Labor - Office of Inspector General                                             8
Improving the Trade Act Programs

(TEGL) No. 5-00 was issued on September 18, 2000, providing guidance on integrating services
under the Trade programs with WIA.

WIA is the most recent of DOL’s employment and training programs that intends to improve
service to participants by establishing local one-stop delivery centers, which colocate several
Federally-funded programs’ information and delivery activities. Among WIA’s offerings is a
dislocated worker program that provides assistance to workers laid off because of plant closings.


Coenrollments among trade programs and WIA dislocated worker programs are encouraged; and
Memoranda of Understanding among the various employment and training entities are being
emphasized. The task force promoted cooperation between the Trade programs and the WIA
Dislocated Worker program, and has assisted in updating a quick reference guide for the trade
programs, as well as a revised program review guide.


                                   Authorization for the Trade programs will soon expire. Congress
 Congressional Interest            is currently considering reauthorization and continued funding of
                                   the programs.




U.S. Department of Labor - Office of Inspector General                                              9
Improving the Trade Act Programs



                 OBJECTIVES, SCOPE AND METHODOLOGY

                                         In completing our audit of the Trade programs, our main
 Audit Objectives                        objectives were to determine if:


        !        services provided by the Trade programs assisted affected employees in returning
                 to suitable employment; and

        !        states’ Trade Act Participant Report (TAPR) accurately reported participant
                 profiles, services, and outcomes, and was adequately supported by participant files
                 and other documentation.

To complement our main objectives, we also determined if:

        !        training assisted former employees in obtaining suitable employment;

        !        training waivers were granted and sustained for legitimate reasons, and their
                 impact on participants’ success in finding suitable employment; and

        !        coordination among trade and other training programs was adequate.


                                        We sampled the Trade programs in aggregate due to the
 Scope and Methodology                  similarity of these two programs authorized under the Trade
                                        Act, as amended. Developmental work was conducted in the
                                        Office of Inspector General’s (OIG) National Office, using
work already being completed on the Government Performance and Results Act (GPRA) and on
DTAA. As discussed in Chapter III of this report, we determined that the TAPR was not
sufficiently reliable to use in establishing a universe. Consequently, a universe of participants who
had terminated during FY 1999 for each program was obtained by contacting program
administrators in each state.

Sixteen states and 724 individuals were selected for review during the audit. The eight states
having the largest number of terminees were selected. Five of the remaining states were randomly
selected from those states reporting moderate numbers of program terminees. The final three
states were randomly selected from the states with exceptionally small numbers of terminees. We
reviewed the profiles, services, and outcomes of the participants selected in the sample. This
work was accomplished through interviews with key state staff, review of participant records,



U.S. Department of Labor - Office of Inspector General                                             10
Improving the Trade Act Programs

participant interviews, and data analysis. Details on the states selected are shown as Exhibit A,
attached to this report.

We chose the State of Georgia to perform limited audit procedures for the purpose of developing
and testing our guide and audit instruments. The resulting guide was used in the nationwide audit
of these two programs.

Audit fieldwork was conducted from October 2000 to August 2001. We did not issue audit
reports to each state. Rather, we provided each state a Statement of Facts (SOFs) and requested
they comment on the information we had gathered. The comments were considered in preparing
this report.

The demographic and performance data discussed in this report were projected nationally from
the sample of states and participants we reviewed. Data taken only from the sample of
participants and not projected nationally are identified throughout this report. More details of
sampling methodology are discussed in Exhibit A.

The audit was conducted in accordance with Government Auditing Standards issued by the
Comptroller General of the United States for a performance audit. We reviewed internal
accounting and administrative controls of the programs only as necessary to fulfill the objectives
of the performance audit.




U.S. Department of Labor - Office of Inspector General                                              11
Improving the Trade Act Programs



                                        RESULTS OF AUDIT

 CHAPTER I - MOST PROGRAM PARTICIPANTS FOUND JOBS WHICH
 PAID SUBSTANTIALLY LESS

                                                    Most of the Trade programs’ participants found
   One-Third of Participants                        employment following their participation in the
   Were Suitably Employed                           program. We estimate 72 percent of FY 1999
                                                    Trade program participants were employed at
                                                    termination. The programs were less successful in
                                                    helping participants regain earnings they had lost
 as a result of being laid off, as 34 percent of program participants were suitably employed. Our
 findings concerning participants’ employment status at program exit are illustrated in Figure 1.

 The purpose of the trade adjustment assistance programs, as described in Trade program
 regulations (20 CFR 617.2), is “to assist individuals who became unemployed as a result of
 increased imports, return to suitable employment.” Both the Act and regulations (TAA, Section
 2296(e); 20 CFR 617.22) define “suitable employment” for persons considered for job training
 as:

        . . .work of a substantially equal or higher skill level than the worker’s past
        adversely affected employment, and wages for such work at not less than 80
        percent of the worker’s average weekly wage.

We did not attempt to measure whether participants found work of equal or higher skill levels, as
discussed in the definition, because of the subjectivity involved. Neither the Act nor regulations
specifically identify program performance measures. However, we adopted the 80 percent wage
replacement definition of suitable employment as a measure of the programs’ impact in assisting
participants recover their earnings. ETA did likewise when for FY 2000, they established a wage
replacement goal of 80 percent for participants exiting the program and a wage replacement goal
of 82 percent for FY 2001.3




        3
          FY 1999 was the first year that ETA established a nationwide performance goal and implemented a
system to determine participant outcomes. For FY 1999, the sole performance measure was reemployment of 72
percent of program terminees. The FYs 2000 and 2001 performance goals combined reemployment and wage
replacement goals. See this report’s “Background” for a discussion of the FYs 2000 and 2001 performance goals.



U.S. Department of Labor - Office of Inspector General                                                      12
Improving the Trade Act Programs


                                                                             Figure 1




We arrived at the percentage of suitably employed persons by comparing their average weekly
wages (hourly wage rates times average hours worked), before trade-impacted layoff or
reduction, with the same factors in the jobs they obtained at program termination. We considered
a participant suitably employed if the person held a job at termination that produced an average
weekly wage of 80 percent or more of the job the person held before being laid off.


                                                       We also determined that 22 percent of
 Less Than One in Four Participants                    program participants had obtained program-
 Obtained Program-Assisted Suitable                    assisted, suitable employment. That is,
                                                       participants who found suitable employment
 Employment
                                                       and credited the program with assisting them
                                                       to obtain their jobs or who were employed in
                                                       training-related
                                                      occupations.
We considered employment “program-assisted” when participants credited the programs with
assisting them in obtaining their job at termination through either job search activities, training or
a combination of the two. We also counted employment as program-assisted when a participant
obtained training-related employment. This determination was made on both participants we


U.S. Department of Labor - Office of Inspector General                                              13
Improving the Trade Act Programs

interviewed as well as participants we could not interview. Even if the participant said the
program did not assist him/her in obtaining the job, we credited the program with an “assist” if
the job the participant obtained related to the training they had received.

Therefore, “program-assisted” employment was determined by a combination of participants
telling us the program had helped them and our determination of whether their employment was
related to occupational skills training they had received. By doing so, we adjusted for those
instances in which persons obtained employment, even suitable employment, but not due to any
training or services provided by the trade programs.

Some examples of the various employment outcomes at program termination, and the ways in
which we have classified them are as follows:

        C        Unsuitable employment - wages. A former sewing machine operator who had
                 been paid $8.50 per hour found a job as a receptionist at $5.50 and worked a
                 similar number of hours per week. This example does not meet our definition of
                 suitable employment.

        C        Unsuitable employment - hours. A former electronics assembler paid $8.21 per
                 hour full-time became employed as a shipping clerk with a wage of $7.59. The
                 hourly rate was well within range of the 80 percent replacement standard, but the
                 person only worked 20 hours per week, making the new employment unsuitable.

        C        Program-assisted, suitable employment. A former shoe cutter worked for more
                 than 17 years in a shoe factory and earned $13.41 per hour. The individual
                 attended a nursing course for about 20 months, successfully completed the classes,
                 and subsequently became a registered nurse. The new job paid $16.25 per hour,
                 full-time, was training-related, and suitable. This was a program-assisted, suitable
                 employment success story. The participant credited the program with helping her
                 obtain the job and rated the services received in the program as excellent.

        C        Suitable employment, not training-related. Another former sewing machine
                 operator, with 13 year tenure, was paid $9.62 per hour. The individual accepted
                 training as a licensed practical nurse. She dropped out of training after 13 weeks,
                 due to family obligations and immediately got a job as a secretary in a law firm,
                 which she still held at the time of our interview. Her starting pay was $8.00 per
                 hour which was a suitable wage, and increased to $9.90 by the time of our
                 interview. But, the job was not training-related, and the individual did not credit
                 the program with assisting her in obtaining the job.

Participants did not obtain suitable employment for a myriad of reasons including: lack of agency
job search and job referrals; poor identification of job openings; inadequate follow-through with


U.S. Department of Labor - Office of Inspector General                                             14
Improving the Trade Act Programs

participants; premature departures from training because of illness or economic necessity; lack of
participant cooperation; unwillingness of participants to relocate; changing careers and
employment in entry-level jobs; and decisions to leave the workforce, including retirements.

The reasons listed in the previous paragraph include many which are beyond the control of the
programs’ service providers. However, we believe program agencies could have done more in
serving individuals during the latter phase of program activities.


                                                                                 Figure 2




Figure 2 depicts the projected average annual earnings of sampled participants, on whom we
could obtain earnings data, before and after program termination. Wages before participation
were $23,332 per year with the trade-impacted employer. After the programs, average annual




U.S. Department of Labor - Office of Inspector General                                          15
Improving the Trade Act Programs

earnings were $17,100 per year.4 Consequently, in the aggregate, the annualized earnings of
participants after program exit were about 73 percent of their previous earnings.

We believe better attention to participant followup and program evaluation would have improved
the average. A number of factors may have contributed to the lack of emphasis on participant
outcomes in the Trade programs.


                                                    In contrast to the Job Training Partnership
 Officials Emphasized Front-End                     Act (JTPA)5, trade programs are driven by
 Program Activities and Services                    petition approvals. Trade legislation required
 Instead of Participant Outcomes                    participant training - absent a justifiable waiver -
                                                    in order for benefits to be paid. Although suitable
                                                    employment was the goal of the program, the
                                                    legislation did not base funding on employment
outcomes, but on petitions approved and numbers of workers affected. Therefore, persons were
certified eligible, typically enrolled in training while receiving TRA, and outcomes were largely
ignored. This led to a lack of emphasis on job referral and placement activity at program exit.

Outcome data were not viewed as a management tool. We found many indications that
program personnel had little regard for the importance of participant followup or the use of post-
termination data as a management tool. For example, one state reported “Unknown” for the
employment status of a large number of participants who terminated from the Trade programs.
When ETA cited them for this, they promptly reported the participants had not found
employment.

Neither the legislation nor the regulations provided for post-program followup as required
by JTPA programs. We believe this fact contributed to a lack of outcomes-oriented attitude
among some program officials. The states did not exclusively monitor the trade programs.
Several did not include the trade programs in their overall monitoring of employment and training
programs at the local level. Instead, these states relied on audits completed under the Single
Audit Act for whatever coverage they may have afforded the Trade programs. Consequently,
monitoring was thus assigned to a post-program audit function.

Had it not been for the attention that JTPA gives to outcomes, very little would have been known
about outcomes from Trade programs. We determined that 47 percent of the trade program
participants were also coenrolled in JTPA or other related programs. JTPA was an outcomes-


        4
         The projected average annual earnings of all participants in our sample was $23,159 before trade-
impacted layoffs and $15,252 in their jobs following termination from the program.

        5
         JTPA, a Federally funded job training program, was replaced by WIA in July 2000.



U.S. Department of Labor - Office of Inspector General                                                       16
Improving the Trade Act Programs

oriented program with stringent followup requirements. Such coenrollments with JTPA enabled
us to assess participant outcomes more readily for the trade participants even in the absence of
such trade program requirements. Many of the outcomes reported were due to the link with
JTPA. Standing alone, the trade programs known outcomes were lacking.

Outcomes reporting for the Trade programs has not been required until recently.
Additionally, ETA did not require suitable outcomes reports from the states and set no
employment outcomes performance standards for the programs until FY 1999. The performance
goal of 72 percent employment for terminees was stated for FY 1999. No reference to suitable
employment was included as an FY 1999 performance goal. Measurement of performance was to
be based on the new TAPR, a report we found to be deficient in its first year of implementation.
(See Chapter III of this report.) To ETA’s credit, the TAPR was initiated in order to provide a
means of determining program outcomes.

In FY 2000, ETA established an unsubsidized employment performance goal of 72 percent with a
goal of 80 percent wage replacement. This was a first attempt to cover the “suitable
employment” intent of the programs. However, we questioned whether states were using any
mechanism which would define and promote suitable employment. One state program
coordinator frankly stated that the agency felt fortunate when it could help individuals find “any
job” after plant closings or mass layoffs.




U.S. Department of Labor - Office of Inspector General                                         17
Improving the Trade Act Programs



CHAPTER II- PROGRAM-RELATED TRAINING WAS MODERATELY
EFFECTIVE IN HELPING PARTICIPANTS FIND JOBS


Training is fundamental to the trade programs’ strategy of ensuring workers who are laid off and
unable to return to their previous occupations upgrade existing skills or acquire new ones that
allow them to obtain employment. We evaluated training provided through the Trade programs
to determine whether participants needed, received and benefited from training. We also
reviewed the oversight that states applied to requests for participant training waivers and whether
there was appropriate coordination between trade and other employment and training programs.

Generally, the training needs of participants in our sample were adequately assessed, and
individuals received training to prepare them for other occupations. Frequently, the training
participants received did not directly relate to the jobs they obtained. However, participants who
received training through the programs fared somewhat better than those who were not trained.
About three of four participants who completed training found employment at program
termination. Less significant were differences among trained and untrained groups in their ability
to find jobs that provided suitable employment.6

In most states we visited, training waivers were seldom approved but appropriately granted when
they were used. We also found that coordination between the trade programs and other
employment and training programs was generally effective.


                                                       Overall, we estimate 91 percent of program
  Most Program Participants Were                       participants received some form of training
  Afforded Occupational Skills Training                through Trade or related dislocated worker
                                                       programs. This represents a dramatic increase
                                                       from the 51 percent enrolled into approved
                                                       TAA training we found after examining FY
                                7
1991 TAA program activities. We believe the large increase in the proportion of trained
individuals is the result of several factors, including better emphasis on training, more judicious
use of waivers by TAA program administrators and NAFTA-TAA requirements that all
participants be enrolled in training to receive income support.




         6
           As previously discussed, “suitable employment” is a job that paid at least 80 percent of the weekly wages
a participant previously earned in the trade-impacted job he or she lost.
         7
          See footnote 2.



U.S. Department of Labor - Office of Inspector General                                                            18
Improving the Trade Act Programs

We found 36 percent of the training providers were college institutions, 37 percent were public
vocational schools, 21 percent were private vocational schools, and the remaining 6 percent were
private or public employers, community action agencies, or other entities. Occupational skills
training covered various Dictionary of Occupational Titles (DOT) categories.

The program predominantly included participants in classroom training for specific occupations or
occupational groups. Of all training performed, 92 percent of training participants engaged in
classroom occupational skills development; but training sometimes included on-the-job training
(OJT) (1 percent) and remedial education (14 percent). The percentages overlap because some
individuals received both remedial and occupational skills training.


                                                   We found most participants’ training needs were
  Participants’ Training Needs                     adequately assessed, and the training they
  Were Adequately Assessed                         received was appropriate. Although
                                                   documentation was sometimes sketchy, we
                                                   determined that 98 percent of program
                                                   participants received assessments of their
personal, occupational, and training needs. Of those assessments, we also concluded that 97
percent were sufficient to determine participants’ needs and desires. Only a small number of
incidences occurred in which we believed that training was provided for occupations that were
not in demand.


                                                              Wide contrasts between the industries and
 The Need for Training Is Indicated by                        occupations in which most program
 Shifts in Industries and Occupations                         participants worked before and after their
                                                              trade-impacted layoffs indicate the training
                                                              was needed to prepare them for new
                                                              careers.

Overall, 878 percent of program participants who had jobs at termination were working in
different industries than those they held before being laid off. The percentage dropped slightly to
83 percent by the time we interviewed program participants. Using the Standard Industrial
Classification (SIC) code groupings for measurement, we noted that jobs participants held before
trade-impacted layoff mostly fell into the following industrial groups: manufacture of apparel,
electronics, and textile mill products. At termination from the Trade programs, the most
prevalent industrial groups were health services, business services, and motor
freight/warehousing. By the time of our interview, apparel manufacture had rejoined the top
three, preceded by health and business services.

        8
         Data were from the sample only and not projected to the nation as a whole.



U.S. Department of Labor - Office of Inspector General                                                  19
Improving the Trade Act Programs

Abrupt changes also occurred in occupational categories. Before trade-impacted layoffs, the top
three broad occupational categories in which participants labored were bench work, machine
trades, and miscellaneous. After the programs, the top three occupational categories of these
participants were professional/technical/managerial, clerical and sales, and services. (See Exhibit
B for more details on SIC and DOT code changes.)


                                                           Participants trained through the Trade
Participants Who Completed Training                        programs were more likely to find
Enjoyed Moderately Better Job Success                      employment after program termination,
                                                           although a majority of participants did
                                                           not obtain training-related jobs.

Our sample results indicate training received through the trade programs helped participants find
jobs and recover their previous earnings potential. As Figure 3 illustrates, those who completed
the training were the most likely both to find jobs and jobs that provided suitable employment (at
least 80 percent of the wages they earned before they were laid off). Overall:

        •        77 percent of participants who completed their training had success finding jobs,
                 and 37 percent of those who completed training obtained suitable employment;

        •        68 percent of participants who received some training, but did not complete
                 training curriculums, found jobs, and 29 percent obtained suitable employment;

        •        54 percent of participants with no training were successful in finding employment,
                 and 29 percent were suitably employed.

The widest disparity was a difference of 23 percentage points between participants finding jobs
who had completed their training (77 percent) and those who had no training (54 percent).
However, caution is required in interpreting the results. This group, who received no training but
found employment, consisted of only 43 persons and represented only 6 percent (43 of 724) of
the total participants in our sample. The untrained participants’ wages averaged $12.58 per hour,
the highest of any group. That compares with average hourly wages of $9.07 and $9.56 for
participants who completed training and those with some training, respectively.

Instead of needing training, participant files indicated many in the untrained group were job ready.
The unusually high average wages of those individuals who were not trained were caused by
exceptionally large incomes of some participants who were already sufficiently skilled and needed
no training intervention. Because there were only 43 participants not trained who found
employment, relatively few high wage earners skewed average wage calculations.




U.S. Department of Labor - Office of Inspector General                                               20
Improving the Trade Act Programs


                                                                                      Figure 3

                          COMPARISON OF EMPLOYMENT STATUS AT TERMINATION
                       PARTICIPANTS WHO RECEIVED VARYING AMOUNTS OF TRAINING


                            77%
            80%                                      68%

            70%
                                                                         54%
            60%

            50%                    37%
            40%                                            29%                  29%

            30%

            20%

            10%

            0%
                   COMPLETED TRAINING    TRAINING NOT COMPLETED   HAD NO TRAINING

                                   FOUND EMPLOYMENT
                                   OBTAINED SUITABLE EMPLOYMENT




A more appropriate comparison is between the groups who completed training and who had some
training. Training had a modest impact on participants’ ability to recover lost earnings. A
difference of 8 percentage points existed between the success rate of participants who had
completed their training (37 percent) and those with no training (29 percent) in finding suitable
employment.

The jobs participants obtained often were not directly related to the training they had received. In
determining if jobs were training related, we used broad-category DOT codes to classify the
occupation in which participants were trained and the occupations of jobs they accepted following
termination from the programs. Participants obtained training-related employment at a rate of 49
percent at program termination.

We also noted that participants who were not trained but had at least a high school education,
obtained much higher paying jobs ($16.52 average hourly wages) than those with a lower
educational level ($6.87 average hourly wages)9.


        9
         See footnote 8.



U.S. Department of Labor - Office of Inspector General                                           21
Improving the Trade Act Programs

There were moderate age disparities among the three groups who found employment.
Participants who completed training averaged 40 years, participants who did not finish training
averaged 37 years, and those who did not receive any training averaged 45 years of age.

We analyzed age and educational demographics of those participants who did not obtain
employment. Participants who did not receive training and did not obtain employment were older
(48 years of age)10, compared to age 43 for training completers and for training noncompleters.
Participants who completed training and did not obtain employment averaged a 12th grade
educational level, compared to the 11th grade for the other two groups.


                                     The TAA program emphasizes the importance of training by
 Training Waivers Were               requiring that all participants drawing TRA benefits must
                                     have entered training, completed approved training, or
 Appropriately Used
                                     obtained a waiver (20 CFR 617.11, Section 2291). A
                                     waiver may be granted in the TAA program if the training
                                     exemption is both “feasible and appropriate” according to
the Act and regulations. For example, a training waiver might be granted if a participant already
possessed marketable skills that would allow him or her to obtain suitable employment. Training
waivers are to be periodically reviewed to determine if they should continue to be allowed.
However, waivers are not permitted in the NAFTA-TAA program (Section 2331).

Previous reviews of the TAA program have identified the frequent and indiscriminate use of
training waivers as a concern. A 1993 OIG audit of the TAA program11 reported that waivers
were granted, often without adequate consideration, to 71 percent of the participants in the 9
states that were reviewed. In some states, the audit reported waivers were “automatically”
granted and had thwarted the intent of the training requirements.

Because of the potential impact on participants’ training, we reviewed whether waivers were
properly granted and sustained. In sharp contrast to our 1993 report, waivers were granted to
only 16 percent of the participants (TAA and NAFTA-TAA participants combined) in our
sample. Although the use of waivers varied greatly among the states, only 2 of the 16 states we
visited frequently used waivers.

Waivers were judiciously granted and properly sustained in most of the states we visited. Overall,
we took exception to waivers relating to only about 3 percent of the participants in our sample.
Typically, our concerns involved lack of periodic state reviews to determine if the waivers should
be continued.


        10
             See footnote 8.
        11
             See footnote 2.



U.S. Department of Labor - Office of Inspector General                                            22
Improving the Trade Act Programs



                                               We determined through staff and participant
 Interprogram Coordination Was                 interviews that program coordination among the
 Effective, and Most Participants              trade programs, JTPA, and other related
 Gave the Programs High Ratings                programs was usually effective. The eligibility
                                               criteria for the trade programs were such that
                                               participants could usually qualify for the JTPA
                                               Title III Dislocated Worker Program. As
previously mentioned, we identified 47 percent of trade participants who were coenrolled in other
programs, usually JTPA Title III.

The trade program regulations encouraged joint, coordinated participation when such would
benefit participants. Participants who enrolled in both programs benefited from what trade
programs and JTPA offered. Participants often drew TRA benefits while being trained with JTPA
funds. Because the trade programs and JTPA Title III both served dislocated workers, the
programs were closely aligned in administration, funding, and services. This relationship should
continue under WIA, including reporting of outcomes.

TRA was an obviously popular component of the trade programs, with only 24 percent of
individuals stating they would or could have taken the training without the TRA benefits.
Generally, the components of the programs were well received, with 74 percent rating the
programs as excellent or good, although 46 percent credited the program with helping them
obtain employment. The overall average rating was 1.9 on a scale of 1 (excellent) to 5 (poor).

Participants we interviewed reported very few coordination problems among the programs.
JTPA training requirements may have been more flexible than that of the trade programs. Some
participants received waivers from training in order to receive TRA, although they were in JTPA-
funded training not approved for TAA.




U.S. Department of Labor - Office of Inspector General                                           23
Improving the Trade Act Programs



CHAPTER III- THE TRADE PROGRAMS’ PARTICIPANT OUTCOMES
REPORTING SYSTEMS WERE UNRELIABLE


We found the Trade programs’ unified reporting system was incomplete and contained inaccurate
data. The TAPR, newly implemented for FY 1999 in order to account for program results more
effectively, was unreliable at both the system contractor and state levels. Often, information
recorded in the TAPR bore little relationship to what had occurred in the programs, was generally
viewed as a troublesome imposition by the states, and often ignored.12

                                              ETA employed a contractor to administer the newly
 Outcomes Reporting Faced                     implemented TAPR. When we requested the
 Many Difficulties in the First               nationwide FY 1999 TAPR database, the contractor
                                              provided, in rapid succession, three different versions
 Year of Implementation
                                              of the program data. The first version contained no
                                              information for 16 of the states’ trade program
                                              participants who had terminated in FY 1999. When
we called this to ETA’s attention, the contractor provided a second version, in which there were
no data for eight states. Soon thereafter, the contractor provided another version of the database
that contained five states with no reported data. The number of program terminees changed from
10,03613 in the first version to 14,531 in the final version.

Because we could not rely on the TAPR database for a participant universe from which we could
audit the trade programs in FY 1999, we contacted each state and requested a count of FY 1999
program terminees. As mentioned, the last TAPR database received from the contractor
contained a total of 14,531 terminated participants. Contacts with the states resulted in
identification of 21,842 participants who had terminated, or an increase of over one-third in the
number reported by the contractor. The variances between terminated participants reported in
TAPR and those the states directly reported to us are indicated in Figure 4.


                                                          We verified the number of program participants
 In One-Half of the States Visited,
                                                          who terminated in FY 1999 at each of the 16
 Participant Counts Were in Error                         states we visited. In one-half of the states, the



          12
          All the data on TAPR in this Chapter are taken directly from the samples of the 16 states audited, and
were not statistically projected to the nation.

          13
               ETA indicated the first version was used to accommodate reporting deadlines for the FY 1999 Annual
Report.



U.S. Department of Labor - Office of Inspector General                                                              24
Improving the Trade Act Programs

numbers of participants who had terminated were significantly different from the counts provided
by the states when we contacted them.

                                                                                     Figure 4


                  NUMBER OF TRADE PROGRAM TERMINEES, FY 1999

  Percentage Variance Between Counts
Obtained Through State Contacts and the TAPR                  Number of States
 5 Percent or Less                                                   24
 Over 5 Percent to 20 Percent                                         7
 Over 20 Percent to 50 Percent                                        6
 Over 50 Percent to 100 Percent                                       3
 Over 100 Percent to 500 Percent                                      7
 Over 500 Percent                                                     3


In one state, the number dropped from 4,801 to 1,920. In another, the number rose from 251 to
1,227. We found some states had only reported terminees who had been trained. Some had
made obvious errors by duplicating counts of the same individuals.

Some of the confusion was because it was difficult to pinpoint the dates participants terminated
from the trade programs. Until the initiation of the TAPR, trade program reports did not include
a count of terminees. To compensate for this, several states automatically terminated participants
90 days following completion of their training. Others did not terminate participants until the file
was passed on to the state’s computer information center. Many states did not include a place on
their program forms which called for a termination date.

Some of the states had difficulty determining what date should be entered as the participant
termination date. ETA’s TAPR instructions provide the following guidance:

        A participant shall be deemed to have terminated if that participant has
        completed all of his/her reemployment program, or has withdrawn from such
        program prior to completion, and has received no other program benefits during
        the 90 days following completion/withdrawal. If the participant is known to be
        employed or the participant’s outcome is otherwise known before the 90 days




U.S. Department of Labor - Office of Inspector General                                           25
Improving the Trade Act Programs

        have elapsed, then the participant should immediately be deemed a terminee and
        the outcome data recorded.

The TAPR compelled states to identify program terminees; but with TAPR implementation being
inadequate, the states sometimes did not have procedures to identify terminated participants.
Therefore, when we requested a count of terminees from the states, we were asking for
information which was nebulous and inexact. We established a universe of terminated
participants in each state and drew random samples for audit at each site. As stated early in this
report, the changing numbers of terminees for FY 1999 are shown in Exhibit A.


                                               Nearly 20 percent of the participants selected in
 Nearly 20 Percent of                          our 16-state sample (143 of 724) were not
 Sampled Participants Were                     reported in the TAPR. The individuals had
                                               applied for the programs, been certified as eligible
 Not Reported in the TAPR
                                               under approved trade-impacted petitions, were
                                               served in one or more program activities, but
                                               were never reported in the TAPR. This resulted
in undercounting the individuals served. Program outcomes were distorted by the unreliable
reports generated from incomplete data.

We tried to determine some causes for participants never reaching the TAPR. Among the most
prevalent causes were that many cases were not properly coded so that the agencies’ management
information personnel did not enter the data into TAPR. Some states lacked a system to collect
and report the data, as required by the TAPR. Also, as already stated, the TAPR was not well
received and viewed as an encumbrance. This lack of enthusiasm was reflected in the condition
of the TAPR.

We also found the numbers of program participants who obtained unsubsidized employment at
program termination were understated by about 46 percent. Overall, 517 program participants
we sampled obtained unsubsidized employment at program termination, yet only 278 were
reported as such in the TAPR.

The purpose of the trade programs as stated in the legislation was “to assist individuals, who
became unemployed as a result of increased imports, return to suitable employment.” The ETA-
563 report called for the number of applicants who obtained unsubsidized employment as did the
newly-implemented TAPR. Although a definition of suitable employment was stated in the
regulations, ETA had not required the states to determine the suitability of employment outcomes
on a case-by-case basis in either of these reporting systems. Therefore, the reporting systems fell
short of the legislative intent, and were further complicated by the failure to identify and report on
employment outcomes, suitable or unsuitable.




U.S. Department of Labor - Office of Inspector General                                             26
Improving the Trade Act Programs

The one performance measure established by ETA regarding the trade programs in FY 1999 was
that 72 percent of terminees nationwide were to be reemployed at program exit. The information
source was to be the TAPR. However, we have noted that the TAPR often did not include
information on participants, and the states often terminated individuals without knowing what
their outcomes were. Nevertheless, we estimate that 72 percent of terminees actually obtained
unsubsidized employment.

In reviewing sampled participants for accuracy and completeness of reporting, we determined that
TAPR was in error due to failure to enter participants into TAPR, missing data on persons who
were entered into TAPR, incorrect information in the TAPR due to insufficient determination as
to what happened to participants, and general clerical errors on the data entered. A
comprehensive error listing is shown as Exhibit C.


                                        The same contractor for the TAPR was also used for the
 Implementation of the                  JTPA’s Standardized Program Information Report (SPIR).
 TAPR Competed With                     Both systems were related, especially since they consisted
 WIA Reporting Systems                  of providing information only on participants who had
                                        been terminated from their programs. The SPIR had been
                                        operating since the early 1990s, whereas, TAPR began in
FY 1999. Since SPIR would be changing with the demise of JTPA in
June 2000, the TAPR would only be in its second year when the changes occurred.
Consequently, the states put little emphasis on TAPR in the face of these program changes. ETA
was unable to obtain full cooperation from all states in implementing TAPR because of the related
JTPA transition to WIA and its concomitant reporting systems.

The FY 2000 TAPR also faced many problems. ETA recognized the data were incomplete and
sampled eight states’ data in one of its regions to estimate performance outcomes for its national
performance report.


                                       Finally, on January 2, 2001, Training and Employment
  A New TAPR System                    Information Notice (TEIN) No. 9-00 was issued which was
  Is Being Implemented                 a notification of submission to OMB of the revised WIA
                                       and TAPR reporting systems. TAPR reports will no longer
                                       be submitted to the contractor, but will be submitted
directly to ETA. States were urged to revise state databases so as to accommodate the new
TAPR record layout. The new TAPR system was designed to be consistent with the WIA
reporting system which utilizes the states’ wage record data systems in order to facilitate state
reporting on all dislocated workers. ETA later issued additional OMB-approved guidance in
TEGL No. 11-00, dated March 2, 2001.




U.S. Department of Labor - Office of Inspector General                                           27
Improving the Trade Act Programs

The new system relies on UI wage data to confirm employment and wages. Wage records are to
be collected for the second and third full quarters, prior to the participant’s most recent qualifying
separation. Three full quarters of wage records following the quarter of exit will be collected for
those who exit the programs to assess obtainment of employment, employment retention and
changes, and employee wages. Suitable employment would still not be a specific reportable item
on each participant.

The TAPR problems confirmed what we had detected in our administrative review of program
organization and operations already discussed: the emphasis was on front-end activities of
petition acceptances, petition approvals, participant eligibility determinations, participant training
arrangements, etc., and allowed little time for participant outcome concerns. Program funding
was based on petition approvals and estimated numbers of persons impacted by foreign
competition and not on participant outcomes. Both program operations and reporting were
affected by the lack of attention to program results.




U.S. Department of Labor - Office of Inspector General                                              28
Improving the Trade Act Programs



                                            CONCLUSION


This report is released some 27 years after TAA’s enactment. However, the central weakness
discussed in our 1993 audit report of the TAA program remains the chief problem identified in
this audit of the Trade programs’ administration. In 1993, we reported:

        After 19 years of operation, neither ETA nor the states know whether the TAA
        program is effective in assisting workers to return to suitable employment in
        occupations not adversely affected by increased imports.

Then, we found virtually no information regarding the program’s impact on participants, because
there were neither systems in place nor requirements to collect data and determine what had
become of participants after they left the program. In our 1993 report, we used the TAA’s
definition of “suitable employment” as we have done in this report, as one measure of the
program’s effectiveness in serving a sample of participants. ETA objected to our use of “suitable
employment” and 80 percent wage-replacement calculation in the 1993 report. ETA commented
that the criterion was vague, open to debate, and an arbitrary definition not appropriate for
measuring program effectiveness.

Since our 1993 report was issued, a number of events have altered perspectives on the program.
TAA has been amended several times, and the NAFTA-TAA program has been added to the
assemblage of Labor’s employment and training programs. Other legislation, such as the GPRA
has encouraged action to establish reporting systems, gather data on participants, and evaluate
performance against established measures. As previously discussed, ETA is instituting new
performance reporting systems and measures to capture participant outcomes. Also, ETA
departed from its previous position, and incorporated wage replacement goals into their FYs
2000 and 2001 performance measures.

However, barriers to assessing the program’s effectiveness we identified in 1993 that were caused
by lack of information and performance measures were also evident in this audit, because
participant data captured by the systems were incomplete and unreliable. Adequate program
monitoring continued to be a concern, and new systems to gather participant outcomes have only
recently been implemented. In addition to improving the quality of program data, ETA faces the
additional hurdle of encouraging the use of performance measurement to guide program
operations. As discussed in Chapter III, program administrators in several of the states we visited
did not view the performance measurement as a management tool. Rather, several voiced
objections to the results being measured and viewed collection of data on participant outcomes as
an accommodation to the Federal Government, not as information to be used in guiding the
programs’ operations.



U.S. Department of Labor - Office of Inspector General                                          29
Improving the Trade Act Programs



                                     RECOMMENDATIONS


We recommend that the Assistant Secretary for Employment and Training ensure:

        !        States have suitable employment goals translated down to the local level of
                 program services so that suitable outcomes are understood and pursued for each
                 participant at the levels where training and services are actually provided.

        !        States have clear, uniform procedures for program termination with a uniform
                 termination date which is linked to cessation of services or to known participant
                 outcomes.

        !        States’ trade adjustment activities are an integral part of their program evaluation
                 and monitoring systems.

        !        ETA and the states monitor participant data in the new TAA reporting system to
                 ensure the data are accurate and complete.




U.S. Department of Labor - Office of Inspector General                                               30
Improving the Trade Act Programs



                   ETA’S COMMENTS ON THE DRAFT REPORT

The response indicates ETA is encouraged by some of this report’s content, such as our findings
that 72 percent of participants are reemployed at program exit, 77 percent of trained participants
finding jobs, 91 percent of participants receiving some form of training, and 97 percent of
participants receiving adequate assessments. ETA was also pleased that we found that training
waivers were appropriately used, interprogram coordination was effective, and most participants
gave the program high marks. (See Exhibit F for the entire text of ETA’s response.)

However, ETA disagreed that achieving “suitable employment,” as defined by the OIG, is a goal
of the Trade Act programs that applies to individual participants. ETA argued neither the statute
nor the regulations contain such as a goal and that the “suitable employment” standard is only one
of the six criteria used to determine if training should be approved. The response makes a
distinction between the definition of suitable employment we adopted and the wage replacement
goal ETA recently established. ETA indicated its wage replacement goals of 80 percent for FY
2000 and 82 percent for FY 2001 are based on averages of all reemployed participants’ wages
nationwide, which are consistent with goals used by the dislocated worker program.

Regarding OIG’s finding that one in four participants obtained program-assisted suitable
employment, ETA pointed out that the statute and regulations require only that training provide a
participant with “a reasonable expectation of employment.” ETA believes it is important to
acknowledge the difficulty participants have in making transitions from one field of work to
another. In many cases, participants enter a new job at an entry level. In such situations, ETA
contends it is unreasonable to expect that every entry level job will be equal to or greater than 80
percent of the worker’s prior wages. ETA commented that using an average of all reemployed
participants wages recognizes the reality that some participants will have greater success than
others in attaining wages early in their new jobs.

ETA concurred with OIG’s finding that program data reported by states were unreliable. OIG’s
review period was the first year of a new reporting system. ETA commented it was the first year
states were required to report on Trade participant outcomes in the 25 years of the program’s
existence, and there were implementation problems. The response noted that a March 2001 OIG
report on GPRA performance measures compared information in certain states’ dislocated worker
program files with participant data in their management information systems (MIS) and found no
errors. The response indicates a new TAPR system, developed in FY 2001, is more closely tied
with the WIA Dislocated Worker program’s reporting system. ETA indicates new procedures
and controls should lead to substantial improvements in reliability and accuracy of program and
participant information.




U.S. Department of Labor - Office of Inspector General                                            31
Improving the Trade Act Programs

Regarding OIG’s recommendations, ETA agreed that communicating goals to local levels is
important, and it will continue to work with states to ensure local offices are better aware of
program expectations. OIG’s recommendation for a uniform termination date will be
accomplished by a “date of exit” with a definition the same as that used by the dislocated worker
program. Improvements in program evaluation and monitoring will result from using a new
program review guide to be implemented in FY 2002. Finally, ETA responded to OIG’s
recommendation that ETA and the states monitor participant data in the new system to ensure
data accuracy by stating that the new system will be operated by ETA in house. ETA believes
that the feedback mechanism will ensure that errors in submissions are identified and corrective
action taken.




U.S. Department of Labor - Office of Inspector General                                          32
Improving the Trade Act Programs



                     OUR EVALUATION OF ETA’S COMMENTS


Many of ETA’s arguments with the definition of suitable employment we used in this report are
identical to objections raised in its response to our 1993 report and appear contradictory. The
argument that “suitable employment” is not a program goal conflicts with ETA’s establishment of
wage replacement goals for FYs 2000 and 2001. We believe there is an expectation that the
program will help participants obtain suitable employment and that the concept is more than a
convention useful in decisions on participant training or benefits.

The law defines the purpose of the program as returning individuals to suitable employment. We
do not disagree with the use of general averages for overall program employment and suitable
employment measurement. We recognize the methodology that ETA has adopted for measuring
Trade program participants’ post-program earnings, includes compromises to accommodate
program data that are readily available, such as quarterly UI wage information, to determine
participants post-program earnings.

We recognize the difficulty of many individuals who need additional education and/or are mature
workers whose careers have been disrupted as a fallout from foreign trade. Entry level
reemployment may be the only option for some individuals. We do not expect that every entry
level job will be equal to or greater than 80 percent of the worker’s prior wage. However, this
should not deter ETA and the states from setting at least 80 percent wage replacement as a goal
for each person. Few goals are ever attained 100 percent. The purpose of the legislation is to
assist individuals in returning to suitable employment, not just to help them find a job.

We do not agree that the wage replacement measurement as implemented by ETA is a superior
measure of program success than the suitable employment measure applied in this report. Under
the methodology adopted by ETA, the wages of individuals are measured only if they were
employed in both the first and third quarters after the quarter they terminated from the program.
Consequently, only the more successful participants’ earnings are used in wage replacement
calculations. By using a method similar to this - persons employed at termination and at interview
- for our sample of 561 interviewed participants, we determined that 201, or about 36 percent,
would be excluded from calculations of wage replacement. The fact remains that when
considering all participants in our sample, one person in three earned at least 80 percent of his/her
former wages at program termination.

Concerning the accuracy of participant data, ETA acknowledged the difficulty of implementing
the TAPR in its first year and discussed its attempts to improve the system. The response
indicates that the OIG report of March 21, 2001, on GPRA performance measures indicates the
data is now accurate.



U.S. Department of Labor - Office of Inspector General                                            33
Improving the Trade Act Programs

We caution that participant data were often incomplete and the errors we identified were
frequently errors of omission. As discussed, data on 20 percent (143 of 724) of the participants in
our sample were never entered into the TAPR. Also, we found an additional 16 percent (113
participants) obtained employment, yet the TAPR reported placement outcomes as ”unknown.”
We only found 19 cases in which the TAPR reported a job placement, which was incorrect. More
rigorous monitoring of information at the point of entry is needed to ensure the data are complete.
While editing and comparison of data that exists in a system is necessary, it alone will not identify
missing information.




U.S. Department of Labor - Office of Inspector General                                            34
                                                                                 EXHIBIT A
                                                                                 (Page 1 of 2)
                                  SAMPLING METHODOLOGY


The sample was stratified in a 2-stage cluster design. The states were first stratified into three
separate strata according to the number of terminees provided us by the states. In total, 16 states
were selected from the three strata and a random sample of terminees was drawn for each of the
selected states. The states chosen for audit, the numbers of terminees in each state’s universe for
FY 1999, as reported in the final version of the TAPR, and the numbers provided by the States
are shown below. The numbers shown in the “Auditor Universe” resulted from differences
identified in verifying the data when we visited each state. The basic numbers of participants to
be sampled, and the number actually sampled are as follows:

                        TAPR             State           Auditor    Basic Total Sample No.
First Strata          Universe          Universe         Universe   Sample Incl.Spares Intrved
 New York                 740            4,801             1,920         44      45         36
 Texas                  2,465            2,541             2,491         43      46         36
 Tennessee              1,605            1,712             1,733         43      49         39
 North Carolina         1,084            1,081             1,081         42      48         34
 California               345            1,001               390         42      49         32
 Kentucky                 918              873               873         43      43         40
 Georgia                  997              810               810         43      43         41
 Washington               608              659               580         43      43         42

Second Strata
 Louisiana                  442              539              542       40       41          38
 Indiana                    214              465              426       40       49          32
 Virginia                   160              418              418       40       50          36
 Missouri                   270              270              251       40       45          33
 Pennsylvania                92              251            1,227       40       50          38

Third Strata
 New Jersey                  13              140              135       40       40          34
 Florida                    135              139              365       40       55          32
 Wyoming                     23               17               28       17       28          18

Totals                   10,111          15,717            13,270      640      724        561




U.S. Department of Labor - Office of Inspector General
                                                                                  EXHIBIT A
                                                                                  (Page 2 of 2)
                         SAMPLING METHODOLOGY (Cont.)

The large variances among TAPR, state and auditor-adjusted universes were the result of errors
reported to OIG. We used the universe telephoned to us by the states after we determined that
TAPR was unreliable. The basic sample was selected from this number. However, as evident,
some of the numbers telephoned were not accurate.

This sample was designed to yield a sampling precision of plus or minus 5 percent, at a 95 percent
confidence level. The population parameters with their standard errors were estimated using
Taylor linearization methodology. The survey data analysis software (SUDAAN) was used for
this purpose without replacement methodology. The statistical weights were determined and used
to compensate for unequal probability of selection of the terminees and nonrespondents within the
sample of selected states.

A demographic profile of participants, broken out by those we were able to locate for interview
and by those we could not, is shown as follows:

                         Percent of            Percent of               Percentage
Attributes               Interviewed         Not Interviewed            Difference

Male                          34.8                  33.8                    1.0
Females                       65.2                  66.2                   -1.0
Blacks                        13.7                  10.8                    2.9
Hispanics                     10.8                  18.9                   -8.1
Whites                        71.4                  66.2                    5.2
Partially Disabled             1.3                   2.0                   -0.7
Significantly Disabled         2.2                   3.4                   -1.2
Not Disabled                  96.6                  94.6                    2.0
Less Than High School         18.4                  22.3                   -3.9
High School Graduate          58.7                  60.8                   -2.1
Above High School             22.9                  16.9                    6.0
Language Difficulty            7.2                  12.1                   -4.9
No Language Difficulty        92.8                  87.2                    5.6
Drawing UI                    39.2                  35.6                    3.6
Exhausted UI                  54.5                  56.4                   -1.9
No UI                          6.3                   8.1                   -1.8

Average Separation Wage $11.46                   $11.42                     .04
Average Age               45.4                      42.2                    3.2
                                                                                        EXHIBIT B


      TOP INDUSTRIAL GROUPS AND OCCUPATIONAL CATEGORIES OF
  PARTICIPANT EMPLOYMENT BEFORE AND AFTER THE TRADE PROGRAMS

Top Industrial Groups               Top Industrial Groups                   Top Industrial Groups
Jobs Held Before Program            Jobs Obtained at Termination            Jobs Held at Audit Interview

Apparel Manufacturing                 Health Services                       Health Services
Electronics Mfg., Exc. Computers    Business Services                       Business Services
Textile Mill Products Mfg.          Motor Freight & Warehousing     Apparel Manufacturing
Misc. Manufacturing                   Educational Services                  Educational Services
Industrial & Computers Equip. Mfg     Electronics Mfg., Exc Computers       Electronic Mfg., Exc. Compu.
Fabricated Metals Mfg.                Apparel Manufacturing                 Misc. Manufacturing
Chemicals & Allied Products Mfg       Misc. Manufacturing           Personal Services
Measuring, Analyzing Equip. Mfg.      Misc. Retail                  Misc. Retail



 Occupational                              Preprogram         Program Term.    Audit Interview
 Categories                                Categories          Categories Categories

Professional, Technical, Managerial             8%                48%                   54%
Clerical and Sales                              7%                18%                   15%
Services                                        2%                 9%                     9%
Agricultural, Fisher, Forestry, & Rel.          1%                *0%                    *0%
Processing                                      6%                 2%                     3%
Machine Trades                                 15%                 7%                     7%
Bench Work                                     49%                 5%                     6%
Structural Work                                 3%                 3%                     2%
Miscellaneous                                   9%                 7%                     5%




*Less than .5 percent
                                                              EXHIBIT C
                                                              (Page 1 of 2)
                 COMPREHENSIVE LISTING OF TAPR ERRORS

         Participant Data Element            Number of Cases with Errors
Social Security Number                                  144
Date of Birth                                           189
Gender                                                  164
Race/ethnicity                                          178
Disability or Lack Thereof                              209
Educational Level                                       266
English Language Proficiency                            209
Most Recent Qualifying Job Separation Date              246
Hourly Wage at Qualifying Separation                    367
Tenure with Qualifying Separation Employer              418
Date of Program Application                             316
Petition Number                                         165
Program of Participation                                155
Date Program Participation Began                        315
Unemployment Compensation Status                        279
Date Entered Training                                   200
Date Completed Training                                 254
Travel Allowances Paid While in Training                147
Trade Readjustment Allowances Were Paid                 246
Waiver from Training Granted                            202
Job Search Allowances Were Paid                         145
                                                                        EXHIBIT C
                                                                        (Page 2 of 2)
               COMPREHENSIVE LISTING OF TAPR ERRORS

         Participant Data Element                 Number of Cases with Errors
 Relocation Allowances Were Paid                              146

 Subsistence or Supportive Services                           160
 Dot Occupational Code Group of Training                      277
 Types of Training Received                                   229
 Basic Reemployment Services Provided                         241
 Other Federal Program Coenrollment                           298
 Date of Participant Program Termination                      333
 Unsubsidized Employment                                      386
 Employment Hours Worked per Week                             265
 Employment Starting Hourly Wage                              294
 Employment Provided Fringe Benefits                          270
 Dot Code Group of Employment Obtained                        299
 Job Covered by Unemployment Insurance                        228
 Person Was Recalled by Layoff Employer                       356

Note: Instances where participant data was improperly omitted from the TAPR are
counted as errors.
                                                                                   EXHIBIT D

                     SUMMARY OF JOB SEARCH AND
                 PARTICIPANT RELOCATION INFORMATION

Due to the exceptionally small numbers of trade assistance participants using the special
components of job search or relocation, we did not discuss them in the body of this report. We
are providing the information in this exhibit.

Job Search Component

Eleven persons appeared in our sample of 724 who experienced the job search component. Five
of the eleven (45%) obtained suitable employment at program termination. Seven states were
represented by job search participants.

Relocation Assistance

Fourteen individuals of the 724 in our sample received relocation assistance. Eight states
provided all the relocation participants. Twelve of the 14 participants (86%) obtained suitable
employment at program termination.

Job Search and/or Relocation Assistance Combined

Out of the 724 participants sampled in the 16 states, 21 (2.9%) individuals experienced either job
search and/or relocation assistance. Fourteen (67%) obtained suitable employment at program
termination. Eight of the 16 states in our sample had one or more persons receiving one or both
of these services.
                                                                    EXHIBIT E
                                                                    (Page 1 of 2)

                COMPARISON OF PARTICIPANT OUTCOMES
                AT TERMINATION AND AUDIT INTERVIEW

                                             Percentage at   Percentage
Outcome Measurement                          Termination     at Interview

Employment                                          72              79
No employment                                       28              21
Suitable employment                                 34              52
Training-related employment                         49              46
Suitable, training-related employment               23              32
“Program-assisted” employment                       46              43
“Program-assisted” suitable employment              22              30
Employment, persons trained                         74              80
Employment, persons not trained                     54              72
Suitable employment, persons trained                34              52
Suitable employment, persons not trained            29              47
Employment, training completions                    77              81
Employment, training noncompletions                 68              77
Suitable employment, training completions           37              54
Suitable employment, training noncompletions        29              49
Training-related jobs, training completions         57              51
Training-related jobs, training noncompletions      24              31
Employment with job benefits                        61              72
Remained with the termination employer              n/a             51
Employment, 45 years and older                      63              71
Suitable employment, 45 years and older             27              45
Employment, males                                   78              83
Suitable employment, males                          31              50
Employment, females                                 69              77
Suitable employment, females                        35              53
Employment, white nonhispanics                      74              80
Suitable employment, white nonhispanics             35              52
Employment, minorities                              68              76
Suitable employment, minorities                     31              52
                                                                                   EXHIBIT E
                                                                                   (Page 2 of 2)


                 COMPARISON OF PARTICIPANT OUTCOMES
               AT TERMINATION AND AUDIT INTERVIEW (Cont.)

Examples of the various employment outcomes at program termination compared to results at
audit interview were:

       •      Training-related job at both termination and interview. A general laborer
              separated from a paper manufacturer paying $9.40 was trained as a medical service
              clerk and found employment as an administrative assistant with the American Red
              Cross, a training-related job which paid $7.00 per hour. However, about one and
              one-half years later, the participant had a similar position at a hospital making
              $12.16 per hour. This person rated the program as excellent and felt it helped with
              getting these jobs.

       •      Suitable job at termination; unsuitable, training-related job at interview. A
              former sewing machine operator with pay of $8.84 per hour completed
              cosmetology training. This person obtained a full time job as an order filler for
              internet sales at a suitable rate of $7.50 per hour. The person later changed jobs to
              become a hair dresser, training-related, but with a wage that fell to an unsuitable
              $6.50 per hour.

       •      Suitable, nontraining-related job at termination; no employment at
              interview. A former shipping clerk, paid $7.25 per hour completed training as a
              systems analyst and programmer. However, the person obtained employment as a
              truck driver at $7.20 per hour, suitable but not training-related. By the time of
              audit interview, this person was unemployed.

       •      No employment at termination or at interview - person retired. An example
              of program participation followed by retirement was a person who had earned
              $12.00 per hour as an assembler after a tenure of 40 years. After training, the
              person found no employment at either program termination or at interview. The
              person elected to retire.
                                                                                  EXHIBIT F


     TEXT OF ETA’S RESPONSE TO THE DRAFT AUDIT REPORT


The complete text of ETA’s response to the draft audit report follows this title page.
